HHS/OIG, Audit -"Ryan White Title I Funds Claimed by a Contractor of the Las Vegas Eligible Metropolitan Area for the Fiscal Year Ended February 28, 2002,"(A-09-03-01019)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Ryan White Title I Funds Claimed by a Contractor of the Las Vegas Eligible Metropolitan Area for the Fiscal Year Ended February 28, 2002," (A-09-03-01019)
March 16, 2005
Complete Text of Report is available in PDF format (533 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine if the Clark County Health District (Health District), a Ryan White CARE Act Title I grantee, ensured that Aid for AIDS of Nevada (AFAN), one of its contractors, (1) provided the expected program services and (2) followed Federal requirements for claiming program costs under CARE Act Title I.  The Health District could not ensure that AFAN provided an expected level of program services with the $756,989 it was awarded.  Further, the Health District did not ensure that AFAN followed Federal requirements for claiming program costs.  Specifically, AFAN claimed $20,634 for unallowable costs and $3,721 for unsupported costs.  We recommended that the Health District refund the $20,634 and work with AFAN and HRSA to determine what portion of the $3,721 of unsupported costs is allowable, and recover the portion that AFAN is unable to support.  We also recommended that the Health District:  (1) specify a level of expected program services in its contract with AFAN; (2) ensure that AFAN develops adequate controls to prevent and detect unallowable and unsupported costs; and (3) ensure that AFAN develops adequate controls to document the reason for providing emergency financial assistance.  The Health District agreed with most recommendations, but disagreed with the recommendation to refund $20,634.